No. __-____

In the Supreme Court of the United States
ROGER HAWES,
v.

Petitioner,

WILLIAM STEPHENS, BRAD LIVINGSTON, AND
PAMELA PACE,
Respondents.
ON PETITION FOR WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

CERTIFICATE OF WORD COUNT
CARSON J. TUCKER, JD, MSEL, Counsel of Record
LEX FORI, PLLC
117 N. First St., Suite 111
Ann Arbor, MI 48104
(734) 887-9261
cjtucker@lexfori.org

1
As required by Supreme Court Rule 33.1(h), and
Orders of this Court dated April 15, 2020, I declare
that the Petition for Writ of Certiorari to the United
States Court of Appeals for the Fifth Circuit being
filed herewith on this day is 7,169 words, excluding
the parts of the document that are exempt from the
word count requirements stated in Supreme Court
Rule 33.1(d).

Respectfully submitted,
Carson J. Tucker
Lex Fori, PLLC
Attorney for Petitioner
(734) 887-9261
Dated: December 7, 2020

